Truliant Federal Credit Union

491020

VISA TRANSPARENT
®

Account Opening Disclosure and
Pricing Information

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases, Balance Transfers, and
Cash Advances

8.15%

Penalty APR and When it Applies

None

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the
close of each billing cycle. We will not
charge you any interest on purchases if
you pay your entire balance by the due
date each month.

Minimum Interest Charge

None

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider
when applying for or using a credit card,
visit the website of the Consumer
Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

This APR will vary with the market based
on the Prime Rate.

Fees
Annual Fee

None

Transaction Fees
• Balance Transfer
• Cash Advance
• Foreign Transaction

None
None
None

Penalty Fees
• Late Payment
• Over-the-Credit Limit
• Returned Payment

None
None
None

How We Will Calculate Your Balance: We use a method called
“average daily balance (including new purchases).” See your account
agreement for more details.
Billing Rights: Information on your rights to dispute transactions and
how to exercise those rights is provided in your account agreement.

CREDIT CARD AGREEMENT
NOTICE: See “YOUR BILLING RIGHTS” section for important
information regarding your rights to dispute billing errors.
In this Agreement the words “you” and “your” mean each and all of those who apply for the card or who
sign this Agreement. “Card” means the VISA Credit Card and any duplicates and renewals we issue.
“Account” means your VISA Credit Card Line of Credit Account with us. “We,” “us,” and “ours” means
this Credit Union.
(Continued on next page)
491020 (10/01/2020)

1. Using the Card. You may use the Card issued to you to make purchases in person, online, and by mail or telephone from merchants and others who accept VISA cards. In addition, you may obtain cash advances from the Credit Union, from other financial
institutions participating in the VISA program and from automated teller machines (ATMs), such as VISA ATM Network, that provide
access to the VISA system. (Not all ATMs provide such access.) You will need to use your Personal Identification Number (PIN) to
obtain a Cash Advance from an ATM. The monthly statement will identify the merchant, electronic terminal or financial institution at
which transactions were made, but sales, Cash Advances, credit or other slips cannot be returned with the statement. You should
retain the copy of such slips furnished at the time of the transaction in order to verify the monthly statement. The Credit Union may
make a reasonable charge for photocopies of slips you request. You may not use your card for any transaction that is illegal under
applicable federal, state or local law.
2. Responsibility. If we issue you a Card, you agree to repay all debts and the FINANCE CHARGE arising from the use of the Card
and the Card Account. For example, you are responsible for charges made by yourself, your spouse and minor children. You are also
responsible for charges made by anyone else to whom you give the Card and this responsibility continues until the Card is recovered.
You cannot disclaim responsibility by notifying us, but we will close the Account for new transactions if you so request and destroy
or return all Cards. Your obligation to pay the Account balance continues even though an agreement, divorce decree or other court
judgement to which we are not a party may direct you or one of the other persons responsible to pay the Account. Any person using
the Card is jointly responsible with you for charges he or she makes, but if that person signs the Card he or she becomes a party to
this Agreement and is also jointly responsible for all charges on the Account, including yours.
3. Military Lending Act. If you are a covered borrower under regulations related to the Military Lending Act, federal law provides
important protections to members of the Armed Forces and their dependents relating to extensions of consumer credit. In general,
the cost of consumer credit to a member of the Armed Forces and his or her dependent may not exceed an annual percentage rate
of 36 percent. This rate must include, as applicable to the credit transaction or account: The costs associated with credit insurance
premiums; fees for ancillary products sold in connection with the credit transaction; any application fee charged (other than certain
application fees for specified credit transactions or accounts); and any participation fee charged (other than certain participation fees
for a credit card account). Please call us at 1-855-878-0499 to receive oral disclosures.
4. Convenience Checks. We may supply you with personalized Convenience Checks which may be used to obtain Cash Advances
on your VISA Account. Only the person whose name is printed on a Convenience Check may sign it. The following other conditions
apply to the use of Convenience Checks: (a) you may not use one to make a payment on any obligation to the Credit Union, (b) it
must be written for only U.S. dollars, (c) it cannot be postdated (show a future date), (d) it cannot be certified, (e) it will not be honored
if you are in default to the Credit Union under this agreement or any other agreement with the Credit Union, (f) it cannot be for an
amount greater than the remaining credit available in your Credit Line, and (g) it will not be honored if it has been reported lost or
stolen. The Credit Union will have no liability for failure to honor a check for any of the foregoing reasons. Any Convenience Check
that the Credit Union pays will be treated as a Cash Advance for your Account.
5. Lost Card Notification. If you believe the Card has been lost or stolen, you will immediately call the Credit Union at 800-822-0382
or 800-442-4757.
6. Liability for Unauthorized Use. You may be liable for the unauthorized use of your Credit Card. You will not be liable for unauthorized use that occurs after you notify the Credit Union orally or in writing, of any such loss, theft, or possible unauthorized use. In
any case, your liability will not exceed $50.00 for unauthorized cash advances at ATM’s. You will have no liability for unauthorized
purchases made with your card.
7. Credit Line. If we approve your application, we will establish a self-replenishing Line of Credit for you and notify you of its amount
when we issue the Card. You agree not to let the Account balance exceed this approved Credit Line. Each payment you make on
the Account will restore your Credit Line by the amount of the payment which is applied to principal. You may request an increase in
your Credit Line only by written application to us, which must be approved by us. By giving you written notice we may reduce your
Credit Line from time to time, or with good cause, revoke your Card and terminate this Agreement. Good cause includes your failure
to comply with this Agreement, or our adverse reevaluation of your credit-worthiness. You may also terminate this Agreement at any
time, but termination by either of us does not affect your obligation to pay the Account balance. All Cards remain our property and
you must recover and surrender to us all Cards upon our request and upon termination of this Agreement.
8. Credit Information. You authorize us to investigate your credit standing when opening, renewing or reviewing your Account and
you authorize us to disclose information regarding your Account to credit bureaus and other creditors who inquire of us about your
credit standing, to the extent authorized by applicable law.
9. Monthly Payment. We will mail you a statement each month showing your previous balances of Purchases, Balance Transfers,
and Cash Advances, current transactions on your Account, the Minimum Payment required, and other information. Each month you
must pay at least the Minimum Payment within 25 days of your statement closing date. You may, of course, pay more frequently, pay
more than the Minimum Payment, or pay the Total New Balance in full, and you will reduce the FINANCE CHARGE by doing so. Your
Minimum Payment will be either (a) 2% of your Total New Balance, or $20.00, whichever is greater, or (b) your Total New Balance if
it is less than $20.00. In addition, you must pay any portion of the Minimum Payment(s) shown on prior statement(s) which remain
unpaid. If at any time your Total New Balance exceeds your Credit Line, you must immediately pay the excess upon our demand.
Unless you otherwise instruct, we may apply your payments in such manner as we may elect.
10. Finance Charges. A FINANCE CHARGE will be imposed on all outstanding balances in your Account from the time they are
posted to your Account; however, you can avoid FINANCE CHARGES on Purchases by paying the full amount of the New Balance
of Purchases each month within 25 days of your statement closing date. Otherwise, the New Balance of Purchases will be subject
to a FINANCE CHARGE. Cash Advances and balance transfers are always subject to FINANCE CHARGE from the date that they
are posted to your Account.
The periodic rate applicable to your account as of October 1, 2020 was .0223287% (corresponding ANNUAL PERCENTAGE RATE
8.15%). The periodic rate that will be applied to the balances in your Account is a variable rate based on the value of an index.
The index is the highest “Prime Rate” as published in the Wall Street Journal, Eastern Edition, on the 25th day of each month (or
the next day that the Wall Street Journal is published if it is not published on the 25th day of the applicable month). Your ANNUAL
PERCENTAGE RATE will be such prime rate plus 4.9%. Your daily periodic rate will be such ANNUAL PERCENTAGE RATE
divided by the number of days in the year. Any change in the periodic rate will be effective on the 1st day of your next billing cycle
beginning after the first day of the next calendar month. The interest rate applied to your Account will increase if the Prime Rate
increases. Any increase in the periodic rate may increase the number of payments required to pay your Account balance in full, and
may cause your minimum payment to increase. Your daily periodic rate will not exceed .0410958% (15% ANNUAL PERCENTAGE
RATE).
For all cards, your FINANCE CHARGE is based upon the average daily balance in your Account for the number of days in the billing
cycle. The average daily balance in your Account is determined by taking the beginning balance in your Account each day, adding
any new Purchases, Balance Transfers, and Cash Advances and subtracting any payment or credits. This gives us the daily balance.
Then we add up all the daily balances for the billing cycle and divide the total by the number of days in the billing cycle. This gives
us the “average daily balance.” The FINANCE CHARGE is determined by multiplying the average daily balance by the daily periodic
rate, and then by multiplying that product by the number of days in the billing cycle.

11. Other Charges. None.
12. Annual Maintenance Charge. You agree to pay an Annual Maintenance Charge for your VISA Account as follows:
VISA Classic - $0.00.
Except as otherwise provided by law, your Annual Maintenance Charge is not refundable and will be charged to your Account as a
Purchase. An Annual Maintenance Charge will be imposed as long as your Account has an unpaid balance.
13. Default. You will be in default if you fail to make any Minimum Payment or other required payment by the date that it is due.
You will be in default if you break any promise you make under this Agreement. You will be in default if you die, file for bankruptcy
or become insolvent, that is, unable to pay your obligations when they become due. You will be in default if you make any false or
misleading statements in any credit application or credit update. You will also be in default if something happens which the Credit
Union believes may substantially reduce your ability to repay what you owe. When you are in default, the Credit Union has the right
to demand immediate payment of your full Account balance without notice. If immediate payment is demanded, you will continue to
pay FINANCE CHARGE, at the periodic rate charged before default, until what you owe has been paid, and any shares that were
given as security will be applied towards what you owe. To the extent permitted by law, you will also be required to pay the Credit
Union’s collection expenses, including court costs and reasonable attorneys’ fees.
14. Returns and Adjustments. Merchants and others who honor the Card may give credit for returns or adjustments, and they will
do so by sending us a credit slip which we will post to your account. If your credits and payments exceed what you owe us, we will
hold and apply this credit balance against future purchases, balance transfers, and Cash Advances, or, if it is $1.00 or more, refund
it on your written request.
15. Amendment to Agreement. We may amend this Agreement at any time upon such notice as is required by applicable law.
Unless the law otherwise provides, notice of amendment shall be mailed or delivered to you at least 15 days prior to the effective
date of a change. Any amendments (including amendment of interest rate, interest rate formula or fees) will apply not only to future
transactions, but also to all Account balances outstanding on and after the effective date of the change.
16. Foreign Transactions. To the extent that you have used your VISA card to purchase goods or services, or obtain cash in another
country, your statement may reflect the conversion into U.S. dollars of transactions which occurred initially in a different currency.
Currently, VISA U.S.A. regulations provide that the exchange rate is either (1) a rate selected by VISA from the range of rates available in wholesale currency markets for the applicable central processing date, which may vary from the rate VISA itself receives, or
(2) the government-mandated rate in effect for the applicable central processing date.
17. Plan Merchant Disputes. Except as provided by law, we are not responsible for the refusal of any plan merchant or financial
institution to honor your Card. For a statement of your billing rights and our obligations with respect to disputes with plan merchants,
see the statement: “YOUR BILLING RIGHTS,” which forms a part of this Agreement and disclosure.
18. Agreement. This Agreement is the contract which applies to all transactions on your Account even though the Purchase slips,
Cash Advance slips, balance transfer requests, credit or other slips you sign or receive may contain different terms. We may assign
our rights under this Agreement. If we do, any amounts due on your Account shall belong to our assignee.
19. No Waiver. The Credit Union can delay enforcing any of its rights any number of times without losing them.
20. Statements and Notices. You will receive a statement each month showing transactions on your Account. Statements and
notices will be mailed to you at the most recent address you have given the Credit Union. Notice sent to any one of you will be
considered notice to all.
21. Closing or Suspending Your Account. You may contact a member service representative to close your Account. Truliant may
close or suspend your Account at any time and for any reason permitted by law, even if you are not in default. If we close or suspend
your Account for any reason, you must stop using your Card but you must still pay us all amounts you owe on the Account.
Security Interest – You grant us a security interest in all individual and joint share and/or deposit accounts you have with
us now and in the future to secure your credit card account. Shares and deposits in an IRA or any other account that
would lose special tax treatment under state or federal law if given as security are not subject to the security interest
you have given in your shares and deposits. You may withdraw these other shares unless you are in default. When you
are in default, you authorize us to apply the balance in these accounts to any amounts due. For example, if you have
an unpaid credit card balance, you agree we may use funds in your account(s) to pay any or all of the unpaid balance.
You are affirmatively agreeing that you are aware that granting a security interest is a condition for the credit card and
you intend to grant a security interest. You acknowledge and agree that your pledge does not apply during any periods
when you are a covered borrower under the Military Lending Act.

YOUR BILLING RIGHTS
KEEP THIS DOCUMENT
FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
Truliant Federal Credit Union
Attn: Billing Rights Department
P.O. Box 26000
Winston-Salem, NC 27114-6000
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential
errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already
corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees.
We will send you a statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do
not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse
to pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you
the name of anyone to whom we reported you as delinquent, and we must let those organizations know when the matter has been
settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card and you have tried in good faith to
correct the problem with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase
price must have been more than $50. (Note: Neither of these are necessary if your purchase was based on an advertisement we
mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that
accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at:
Truliant Federal Credit Union
Attn: Visa Department
P.O. Box 26000
Winston-Salem, NC 27114-6000
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell
you our decision. At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

TRAVEL ACCIDENT INSURANCE DESCRIPTION OF COVERAGE
Principal Sum(s) Enrolled: Visa Credit Card:
Benefit Amount, $250,000
THIS IS AN ACCIDENTAL DEATH AND DISMEMBERMENT
ONLY POLICY AND DOES NOT PAY BENEFITS FOR LOSS FROM SICKNESS
This Description of Coverage is provided to eligible cardholders, and replaces any and all Descriptions of Coverage previously
issued to the insured with respect to insurance described herein.
Eligibility and Period of Coverage
You and your dependents1 become covered automatically when the entire Common Carrier fare is charged to your covered card
account (“Covered Persons”). It is not necessary to notify the Financial Institution, the Insurance Company or Plan Administrator
when tickets are purchased. Coverage ends when the policy is terminated or on the date your covered card terminates or ceases
to be in good standing, whichever occurs first.

Benefits
Subject to the terms and conditions, if a Covered Person’s accidental bodily injury occurs while on a Covered Trip and results in any
of the following Losses within one year after the date of the accident, the Insurance Company will pay the following percentage of the
Principal Sum for accidental Loss of:
Life................................................................................. 100%
Both hands or both feet................................................ 100%
Sight of both eyes......................................................... 100%
One hand and one foot................................................. 100%
Speech and hearing...................................................... 100%
One hand or one foot and the sight of one eye............ 100%
One hand or one foot...................................................... 50%
Sight of one eye.............................................................. 50%
Speech or hearing........................................................... 50%
Thumb and index finger on the same hand.................... 25%
In no event will multiple charge cards obligate the Insurance Company in excess of the stated benefit for any one Loss sustained by a
Covered Person as a result of any one accident. The maximum amount payable for all losses due to the same accident is the Principal
Sum.
Loss means actual severance through or above the wrist or ankle joints with regard to hands and feet; entire and irrevocable Loss of
sight, speech or hearing; actual severance through or above the metacarpophalangeal joints with regard to thumb and index fingers. The
life benefit provides coverage in the event of a Covered Person’s death. If a Covered Person’s body has not been found within one year of
disappearance, stranding, sinking, or wreckage of any Common Carrier in which the Covered Person was covered as a passenger, then
it shall be presumed, subject to all other provisions and conditions of this coverage, the Covered Person suffered Loss of life.
Injury means bodily injury resulting directly and independently of all other causes from an accident which occurs while the Covered
Person is covered under this policy.
Covered Trip means a trip (a) while Covered Person is riding on a Common Carrier as a passenger and not as a pilot, operator or crew
member, and (b) charged to your covered card, and (c) that begins and ends at the places designated on the ticket purchased for the trip.
Covered Trip will also include travel on a Common Carrier (excluding aircraft) directly to, from or at any Common Carrier terminal, which
travel immediately precedes departure to or follows arrival at the designation designated on the ticket purchased for the Covered Trip.
Common Carrier means any scheduled airline, land or water conveyance licensed for transportation of passengers for hire.
Common Carrier does not include a conveyance operated for sport, recreation, and/or sightseeing activities or for any travel in any aircraft
device for aerial navigation except as expressly provided in the policy.
Exclusion: No payment will be made for any Loss that occurs in connection with, or is the result of: (a) suicide, attempted suicide or
intentionally self-inflicting injury; (b) any sickness or disease; (c) travel or flight on any kind of aircraft or Common Carrier except as a
fare-paying passenger in an aircraft or on a Common Carrier operated by a regular schedule for passenger service over an established
route; or (d) war or act of war, whether declared or undeclared.
Beneficiary: Benefit of Loss of life is payable to your estate, or to the beneficiary designated in writing by you. All other benefits are
payable to you.
Notice of Claim: Written Notice of claim, including your name and policy number VTA00015 should be mailed to the Plan Administrator
within 20 days of a covered Loss or as soon as reasonably possible. The Plan Administrator will send the claimant forms for filing proof
of Loss.
The Cost: This travel insurance is purchased for you by your Financial Institution.
Description of Coverage: This description of coverage details material facts about a Travel Accident Insurance Policy which has been
established for you and is underwritten by Virginia Surety Company, Inc. Please read this description carefully. All provisions of the plan
are in the master policy, VTA00015, issued to the Visa USA Trust, Chicago, IL which is effective 4/1/03. Any difference between the policy
and this description will be settled according to the provisions of the policy.
Questions: Answers to specific questions can be obtained by writing to the Plan Administrator:
CBSI Enhancement Services
550 Mamaroneck Avenue
Harrison, NY 10528
Underwritten by: Virginia Surety Company, Inc., 1000 N. Milwaukee Avenue, Glenview, IL 60025
General Program Provisions, Travel Accident Insurance:
Travel Accident Insurance is provided under a master policy of insurance issued by Virginia Surety Company, Inc. (herein referred to as
“the Company”). We reserve the right to change the benefits and features of all these programs.
VISA USA or the Company can cancel or choose not to renew the insurance coverages for all insureds. If this happens, your Financial
Institution will notify the Cardholder at least 30 days in advance of the expiration of the policy. Such notices need not be given if substantially similar replacement coverage takes effect without interruption and is provided by the same insurer. Insurance benefits will still apply
to Covered Trips commenced prior to the date of such cancellation or non-renewal, provided all other terms and conditions of coverage
are met. Travel Accident Insurance does not apply if your Card privileges have been suspended or cancelled. However, Insurance benefits
will still apply to Covered Trips commenced prior to the date that your account is suspended or cancelled provided all other terms and
conditions of coverage are met.
Coverage will be void if, at any time, the Cardholder has concealed or misrepresented any material fact or circumstance concerning the
coverage or the subject thereof of the Cardholder’s interest herein, or in the case of any fraud or false swearing by the Insured relating
thereto. No person or entity other than the Cardholder shall have any legal or equitable right, remedy, or claim for insurance proceeds
and/or damages under or arising out of this coverage.
No action at law or in equity shall be brought to recover on this coverage prior to the expiration of 60 days after proof of Loss has been
furnished in accordance with the requirements of this Description of Coverage.
The Company, at its expense, has the right to have you examined, as often as reasonably necessary while a claim is pending. The
Company may also have an autopsy made unless prohibited by law.
1
Your spouse, unmarried dependent child(ren), under age 19 (25 if a full-time student). No age limit for incapacitated child. Incapacitated
child means a child incapable of self-sustaining employment by reason of mental retardation or physical handicap, and chiefly dependent
on you for support and maintenance. The maximum benefit payable for dependent children is the Principal Sum, not to exceed $500,000.

